                       U.S. General Services Administration
                       Office of Inspector General




May 15, 2013

MEMORANDUM FOR:
                                                                          UISITION SERVICE

FROM:                          JAMES P. HAYES
                               DEPUTY ASSISTA
                               ACQUISITION PR

SUBJECT:                       Fiscal Year 2011 Federal Acquisition Service Leadership
                               Conference -Atlanta, Georgia
                               Memorandum Number A120130-05

This memorandum provides the results of our survey work related to the subject
conference. This conference was not initially selected from the preliminary report of
agency-wide conference activity compiled by the General Services Administration
(GSA) Office of Administrative Services. It was selected for review as a result of its
connection with a conference from that list, as noted by our review of the Federal
Acquisition Service (FAS) Leadership Conference in Orlando, Florida. 1 Our objective
was to determine if conference acquisition procedures were compliant with the Federal
Acquisition Regulation (FAR) and whether additional audit or investigative inquiries are
warranted. We are providing comments on how the Southeast Sunbelt Region
(Region 4) conference acquisition procedures were not compliant with the requirements
of the FAR resulting in a flawed source selection methodology.

Background

In response to congressional inquiries following disclosures in the Office of Inspector
General's Management Deficiency Report, concerning the 2010 Western Regions
Conference, GSA provided interested congressional committees with a listing of GSA
conferences. Since conferences have not historically been tracked as discrete financial
events, supporting data is not accessible from GSA's financial systems. As an
alternative, the GSA Office of Administrative Services initiated an agency-wide data call
in April 2012. Subsequent revisions have improved the accuracy and completeness of
this data. The compiled records include conference name, purpose, GSA business line,
location, number of attendees, and cost data.




1
    See Audit Memorandum A 120130-04, FAS Leadership Conference, Orlando, Florida.


                                1800 F Street, NW, Washington, DC 20405
Our survey effort attempted to validate a subset of the agency compiled conference
data. The subset of conferences chosen for survey:

   •   Occurred after September 30, 201 0;
   •   Had an attendance of at least 25 people; and
   •   Incurred total cost of at least $10,000.

The fiscal year 2011 FAS Leadership Conference in Orlando, Florida met those criteria.
However, during review of that conference, we identified a related, but smaller, prior
training conference held in Atlanta, Georgia. These conferences are interconnected as
the contract file for the Atlanta conference was used as the basis for developing the
contract requirements for the Orlando conference.

Our inquiry into the Atlanta conference indicated the conference acquisition procedures
were potentially in noncompliance with the FAR. The procurement for this training was
made using a GSA Mission Oriented Business Integrated Services (MOBIS) schedule
task order under special item number (SIN) 874-4, Training Services. The contracting
officer and a technical representative, through personal knowledge of potential training
vendors, forwarded a 'Request for Quotation (RFQ) to three vendors. Roberts Business
Associates (Roberts) was the only vendor to submit a proposal and on October 21,
2011 , was awarded the task order in the amount of $73,029.

Roberts, under its MOBIS contract, provides off-the-shelf or customized off-the-shelf
training packages. The contract identifies course titles, course prices, minimum (4-10)
and maximum (20) limits on participants, and an additional fee per participant over the
minimum up to a maximum of 20 participants. A total of 23 FAS participants attended
the conference.

Finding 1 - The Performance Work Statement was not independently developed.

Roberts employed The Disney Institute as a subcontractor for the purpose of providing
the training as required in the Performance Work Statement (Work Statement).
Roberts' proposal included the statement, "The lists of course objectives and training
modules from the Work Statement are very similar to those already used for courses
taught by Roberts and The Disney Institute." The Disney Institute's on-line course
offerings, in some cases, either matched or closely matched the requirements in the
Work Statement. The appearance is that the contracting officer used The Disney
Institute's on-line course offerings as the basis for developing the Work Statement. This
could be the reason that the only proposal received was from Robertsffhe Disney
Institute. The Work Statement should not be structured towards a particular schedule
contract holder, but allow for open and fair competition.




                                           2
Finding 2 - Roberts' proposal and contract award was not consistent with its
MOBIS schedule or the RFQ.

Roberts' MOBIS contract did not provide for training services of the nature requested
under SIN 874-4; however, The Disney Institute's on-line training offerings did. Roberts'
proposal included labor costs for facilitation services,2 which was not included in the
RFQ. In addition, Roberts' proposal included a price for Other Direct Costs (ODCs) of
$25,000 which the RFQ capped at $3,000. It appears that Roberts' proposal was
developed by The Disney Institute under its pricing model instead of Roberts' pricing
schedule. This arrangement is contrary to the purpose of the MOBIS schedule program
to provide a price already determined fair and reasonable as required by FAR 8.404(d).

The Independent Government Estimate (IGE) of $75,000 was based on an estimate of
30 participants at a cost of $2,500 per person (2,500 X 30 participants = $75,000). The
estimate was not supported by any analysis or other documentation. In addition, the
IGE was not structured to permit an evaluation of the proposed level of effort or the cost
of training materials. The IGE is consistent, however, with The Disney Institute's on-line
pricing schedule.

Although only one proposal was submitted, the contracting officer determined that
Roberts' proposal was fair and reasonable with the basis for award being the lowest
price technically acceptable (FAR 8.405). As discussed above, the RFQ required
training and pricing based on SIN 874-4, Training Services. However, Roberts' based
its proposal on labor costs from SIN 874-2, plus other direct costs that exceeded the
RFQ cap. If the contracting officer had compared Roberts' proposal to its MOBIS
contract under SIN 874-4 and the RFQ, the contracting officer should have recognized
inconsistencies with Roberts' proposal. If this comparison had occurred, Roberts'
proposal would have been subject to rejection requiring the re-solicitation of contractor
proposals.

Finding 3 - Roberts' final invoice was not consistent with its price proposal,
contract award or FAS requirements under a prime contractor/subcontractor
arrangement.

Roberts' final invoice of $60,824 reflected an all-inclusive rate of $2,400 per attendee
plus $5,624 in ODCs [($2,400 x 23) + $5,624 = $60,824]. This pricing methodology
does not agree with Roberts' proposal or contract award which used a labor hour basis
plus ODCs. The rate of $2,400 per attendee is consistent with The Disney Institute's
on-line commercial pricing schedule.

MOBIS schedule contract rules governing prime contractor/subcontractor arrangements
state, "The ordering activity is invoiced in accordance with the prime contractor's GSA
Schedule contract.. .. " The Work Statement stated that the contract type was a firm
fixed price task order issued off Robert's schedule contract. Based on the contract
award, the invoice should have reflected the task order award price of $73,029.
2
    Facilitation services are offered under SIN 874-2.



                                                         3
Connection to the FAS Leadership Conference in Orlando, Florida

After completion of the Atlanta training conference, the Region 4 FAS Deputy Assistant
Commissioner notified the now retired FAS Deputy Commissioner that he should look
into using The Disney Institute for a leadership conference. The Region 4 contracting
officer's files were subsequently forwarded to Central Office staff for use in developing
the RFQ for the FAS Leadership Conference held in Orlando. The act of forwarding
contracting officer file information to another GSA office to be used as a guide would
normally be a prudent, efficient, and effective practice. However, if the original
procurement is flawed and the receiving office that used the information fails to
recognize those procurement flaws, the result is a second flawed procurement.

Conclusion

The available evidence appears to indicate that Region 4 preselected Roberts and The
Disney Institute, directing a procurement using the GSA Multiple Award Schedule to
give the appearance of satisfying FAR competition and price reasonableness
requirements. Although only one proposal was received , it was flawed and should have
been rejected upon initial review.

These observations were made in the course of our survey efforts. They do not derive
from, nor have we conducted, the tests and procedures required under an audit.
Accordingly, we are making no formal recommendations. However, this memo will be
made available to the independent public accountant and may trigger additional testing
as part of its annual audit of GSA's financial statements. If we can be of further
assistance, please contact me at 202-273-7321 .




                                           4
Distribution List

Chief Administrative Services Officer (H)

Assistant IG for Audits (JA)

Deputy Assistant IG for Investigations (JID)




                                               5
